                       AUDIT REPORT



Surface Visibility –
Transportation Operations
– Suncoast District
   May 5, 2014




                 Report Number NO-AR-14-004
                                                                    HIGHLIGHTS

                                                                         May 5, 2014
                                                 Surface Visibility – Transportation
                                                    Operations – Suncoast District
                                                      Report Number NO-AR-14-004
BACKGROUND:
The U.S. Postal Service uses the            inflated SV scan compliance
Surface Visibility (SV) system to collect   performance scores for some area and
data to help plan, manage, and optimize     district employees. This information was
the surface transportation network.         provided to the OIG’s Office of
Employees scan barcodes on trailers         Investigations for action as appropriate.
and containers to track mail volume
throughout the surface transportation       Because the SV system data were
network. This gives managers                unreliable and not useful for optimizing
information to manage resources, track      transportation, management missed an
mail volume, and identify and correct       opportunity to eliminate or modify
transportation problems.                    103 highway contract route trips and
                                            eliminate 2,928 postal vehicle service
Our objective was to assess SV system       driver workhours. These changes would
use in transportation operations in the     have saved an average of about
Suncoast District in Southern Florida.      $2,124,000 annually in
                                            transportation-related costs.
WHAT THE OIG FOUND:
The Suncoast District could more            RECOMMENDATIONS:
effectively execute SV system scanning.     We recommended the vice president,
We observed employees estimating            Southern Area Operations, ensure
trailer bed loads and manually entering     containers have the proper barcodes for
the information into the SV system 73       scanning and implement controls and
percent of the time. Consequently, they     employee training to ensure proper
were only scanning containers 27            scanning procedures are followed. In
percent of the time. Because of this        addition, we recommended
improvised workaround, the official scan    management verify 103 trips from
container compliance score reported in      highway contract routes are eliminated
the SV system was much higher at 55         or modified, and review and eliminate
percent (a 28 percent variance from the     2,928 workhours from postal vehicle
actual scans).                              service schedules or document the
                                            reasons for retaining those workhours.
These conditions occurred because
containers did not always have properly     Link to review the entire report
barcoded placards and employees were
inadequately trained and supervised.
Also, some employees stated that it was
more convenient to use the workaround
than to actually perform the scans.
These actions might have artificially
May 5, 2014

MEMORANDUM FOR:             JO ANN FEINDT
                            VICE PRESIDENT, SOUTHERN AREA OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Surface Visibility – Transportation
                            Operations – Suncoast District
                            (Report Number NO-AR-14-004)

This report presents the results of our audit of Surface Visibility – Transportation
Operations – Suncoast District (Project Number 13XG021NO001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Surface Visibility – Transportation
 Operations – Suncoast District                                                                                    NO-AR-14-004




                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Mail Container Scanning ................................................................................................. 2

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B. Assessment of Postal Vehicle Service and Highway Contract Routes
  Using Surface Visibility Data ....................................................................................... 9

Appendix C: Monetary Impact ....................................................................................... 19

Appendix D: Management’s Comments ........................................................................ 20
Surface Visibility – Transportation                                                                  NO-AR-14-004
 Operations – Suncoast District



Introduction

This report presents the results of our self-initiated audit of Surface Visibility (SV) –
Transportation Operations – Suncoast District (Project Number 13XG021NO001). Our
objective was to assess SV system use in transportation operations in the Suncoast
District. Our audit included a review of highway contract routes (HCR) and Postal
Vehicle Service (PVS) schedules using data generated from the SV system. See
Appendix A for additional information about this audit.

The goal of the SV system is to collect data on surface mail transportation at the mail
transport equipment handling unit (sack, tray, and tub) and rolling stock1 container
levels and track volume through the surface network. Employees need to scan
barcodes on trailers, handling units, and containers for the SV system to accurately
track mail. The data in the SV system helps the U.S. Postal Service plan, manage, and
optimize the transportation network, which directly impacts its Delivering Results,
Innovation, Value, and Efficiency Initiative, Network Optimization.

To collect data for the SV system, clerks, mail handlers, and dock personnel must scan
trailers, handling units, and containers at various points in the mail processing and
dispatch process using both passive2 and manual scanning methods. The Postal
Service uses these scans to calculate trailer use and record trailer arrivals and
departures. The scanned data also help personnel monitor late transportation, which
can result from processing delays, poor dock management, weather-related delays, or
contractor issues. The data feeds into SVWeb, the Transportation Information
Management Evaluation System (TIMES), and the Electronic Data Warehouse for
transportation analyses. If these data are inaccurate, the resulting analyses will also be
inaccurate.

Before implementing the SV system in 2004, the Postal Service based its transportation
analyses on employees manually entering transportation use and tracking data into
TIMES.

Conclusion

The Suncoast District could more effectively execute SV system scanning for
transportation operations. We observed that 73 percent of the time employees
estimated trailer bed loads and manually entered the information into the SV system,
rather than scanning the containers. Because the facilities used this improvised
workaround, the official scan container compliance score reported in the SV system was
much higher at 55 percent (a 28 percent variance from the actual scans).



1
    Rolling stock is another term for all-purpose mail containers used to transport mail to and from facilities.
2
    A passive scan occurs via mechanized means at various points through processing and dispatch of mail products.
                                                              1
Surface Visibility – Transportation                                                                NO-AR-14-004
 Operations – Suncoast District



Barcode scanning did not occur because containers were not always barcoded,
management oversight was inadequate, and employees were not trained. Some
employees said it was more convenient to use the workaround than to perform the
required scans.

As a result, SV scan compliance performance scores for some area and district staff
may have been artificially inflated.3 This information was provided to the U.S. Postal
Service Office of Inspector General (OIG), Office of Investigations, for action as
appropriate. In addition, because some of the SV system data were based on estimates
rather than actual scans, the SV system was unreliable and, therefore, not a useful
management tool. Consequently, management in the Suncoast District could not take
advantage of SV system features to optimize the transportation network, including using
SV-calculated mail volumes, to adjust trips. For example, the Postal Service missed an
opportunity to use accurate data to identify and eliminate or modify 103 trips from
HCRs, with an estimated average savings of $1,988,524 annually. The Suncoast
District could have removed 2,928 unnecessary workhours from existing PVS
schedules, saving an average of $135,777 annually. See Appendix B for a detailed
analysis of this topic and Appendix C for monetary impact.

Mail Container Scanning

We found that transportation container scan data in the SV system is unreliable in the
Suncoast District because:

    Some containers were not properly barcoded and employees neglected to scan
     barcoded placards on containers.

    Employees did not scan empty mail equipment as they loaded it onto and unloaded
     it from trailers.

    Employees used a workaround by estimating and manually entering trailer bed load
     percentages into scanners because it was convenient.

We corroborated this condition by observing 717 trips occurring between November
2013 and January 2014. From those observations, we determined employees did not
scan containers on 82 percent of outbound trips and 65 percent of inbound trips
(aggregated to 73 percent) as they loaded or unloaded trailers. However, because
employees manually entered data, the official scan container compliance score reported
in the SV system was much higher at 55 percent. This amounted to a 28 percent scan
variance to the actual scans. See Table 1.

3
  National Performance Assessment is a web-based system that collects performance-related metrics – such as retail
                               ®
revenue, on-time Express Mail delivery, scan compliance, and so forth – from systems across the organization.
These metrics are translated into web-based balanced scorecards that management can use to monitor the
performance of the entire enterprise or individual units across the nation.




                                                        2
Surface Visibility – Transportation                                                             NO-AR-14-004
 Operations – Suncoast District




                            Table 1. Suncoast District Observed
              Trailer Load/Unload Scan Percentages Compared to SVWeb4




Source: OIG observations and SVWeb.

This occurred because mail containers did not always have the barcoded placards
needed for scanning. Also, some employees were not scanning barcodes on placards,
stating that it was more convenient to manually input the information. See Figure 1 for
an example of an unbarcoded placard on a container of mail about to be dispatched to
an associate office.




4
  Data from SV scanning is downloaded into SVWeb, which is an application management uses to analyze and track
scanning performance. The SVWeb reported the trailer load/unload scan score is the sum of performed trailer
load/unload scans divided by expected scans. We conducted observations from November 11, 2013, through
January 23, 2014.

                                                       3
Surface Visibility – Transportation                                             NO-AR-14-004
 Operations – Suncoast District


               Figure 1. Tampa Processing and Distribution Center (P&DC) Container
                           Without a Properly Assigned/Barcoded Placard




                                                Source: OIG photograph taken
                                                    November 13, 2013.

As a result, SV scan compliance performance scores for some area and district staff
may have been inflated. This information was provided to the OIG, Office of
Investigations, for action as appropriate. Further, this renders the SV system an
unreliable management tool. Consequently, management in the Suncoast District could
not take advantage of SV system features to optimize the transportation network,
including using SV-calculated mail volumes to adjust trips. Reliable SV system data
could be used by the Suncoast District to:

       Improve the effectiveness of scheduled HCRs and save an average of $1,988,524
        annually by modifying or eliminating 103 trips. The Postal Service could consolidate
        these low-volume trips without causing additional delays in service.

       More effectively manage PVS transportation processes and schedules by reducing
        driver workhours and associated fuel use. PVS schedules contained unneeded
        workhours and the Postal Service spent more money than necessary because
        transportation was not full or trips did not run as scheduled. By eliminating 2,928
        annual workhours5 from scheduled PVS routes, the Postal Service could save an
        average of $136,777 annually. See Appendix B for a detailed analysis on this topic.

Recommendations

We recommend the vice president, Southern Area Operations:

1. Ensure that containers coming from mail processing operations have proper
   barcoded placards for employees to scan.
2. Implement controls to ensure proper scanning.

5
    PVS estimated savings include workhours and tort claims.

                                                          4
Surface Visibility – Transportation                                         NO-AR-14-004
 Operations – Suncoast District


3. Retrain employees on proper surface visibility policies and scanning procedures.
4. Verify and document the elimination or modification of 103 trips from highway
   contract routes in the Suncoast District and eliminate 2,928 workhours from Postal
   Service vehicle service trip schedules or document the reasons for retaining the
   workhours.
Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.

In response to recommendation 1, management will review operations and, where
appropriate, ensure that mail coming from mail processing is properly placarded.
Management also plans to provide additional training and put controls in place to ensure
compliance. The Postal Service expects to complete these processes by May 24, 2014.

In response to recommendation 2, management will review procedures and put controls
in place to ensure employees follow proper scanning procedures. Management will also
perform periodic audits at each facility to ensure compliance. The Postal Service
expects to complete these processes by May 24, 2014.

In response to recommendation 3, management stated that all employees who scan will
complete mandatory refresher SV training by June 1, 2014.

Finally, in response to recommendation 4, management has begun reviewing the 103
HCR trips and PVS schedules. Management will analyze the trips and schedules and
make modifications, as necessary. Management also plans to provide documentation to
support any need to keep transportation changes that are not implemented. The Postal
Service stated they had completed these changes as of April 19, 2014. See Appendix D
for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. With respect to recommendation 4, the OIG will review any documentation when
provided to validate actions already taken to remove trips and workhours. The OIG will
also review any documentation that supports management's decision not to make some
of the recommended changes, if applicable.

The OIG considers all of the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           5
Surface Visibility – Transportation                                                  NO-AR-14-004
 Operations – Suncoast District


                                    Appendix A: Additional Information

Background

In 2004, the Postal Service deployed the SV system to various facilities, including
P&DCs, surface transfer centers (STC), and former bulk mail centers.6 SV is active at
169 sites, including 121 P&DCs and 21 NDCs. SV is designed to provide:

      More accurate transportation use and tracking data.
      Real-time asset identification and tracking capabilities.
      Improved dock productivity tracking and performance.
      Elimination of manual data entries in TIMES.

Before the SV system was implemented, the Postal Service based its transportation
analyses on employees manually entering transportation use and tracking data into
TIMES.

The goal of the SV system is to collect data at the handling unit (tray, tub, and sack)
level to track volume through surface transportation. Employees use hand-held
scanners called Intelligent Mail Devices (IMD) to capture SV system data.

                                                    Figure 3. IMD




                                   Source: OIG photograph taken November 12, 2013.




6
    Currently called network distribution centers (NDC).

                                                           6
Surface Visibility – Transportation                                           NO-AR-14-004
 Operations – Suncoast District


SV shows the volume of mail moving through various points in the surface
transportation network and records transportation dispatches and arrivals. It is designed
to allow managers to access detailed information to manage resources, track mail
volume, identify network problems at Postal Service facilities, and take corrective action
to improve performance. This includes using SV data to assess PVS and HCRs for
efficiency.

PVS Operations. Postal Service network transportation that uses Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles and
personnel to Postal Service network facilities, such as NDCs or P&DCs, in or near
metropolitan areas. PVS operations typically include yard operations where PVS drivers
use spotter trucks to move or “spot” trailers and equipment in or around a facility yard.

HCR Operations. The primary mode of surface transportation is contracted highway
transportation. HCR is a surface transportation route served by a Postal Service
contractor (an HCR supplier) to carry mail by highway between designated points. HCR
transportation costs the Postal Service about $3 billion annually. HCRs are managed at
the facility level under the guidance of area and headquarters transportation officials.

Objective, Scope, and Methodology

Our objective was to assess SV system use in transportation operations in the Suncoast
District in Southern Florida. During our work, we interviewed Postal Service officials at
headquarters and at the Tampa and Orlando P&DCs and logistics and distribution
centers (L&DC). We reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations.

We tested the validity of SV data by comparing our observations to data Postal Service
employees put in the SV system. Our audit also included a review of HCR and PVS
schedules for opportunities to eliminate or modify HCR or PVS routes. We extracted
HCR data from the Transportation Contract Support System and PVS route data from
Vehicle Information Transportation Analysis and Logistics. This data detailed all routes
servicing the Orlando and Tampa P&DCs and L&DCs. We analyzed the schedules and
the SV data downloads entered into TIMES. During our analysis, we considered trailer
use, mail type, dispatch of value, critical entry times, and other operational service
standards to identify opportunities to eliminate and modify trips.

We conducted this performance audit from October 2013 through May 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 27, 2014, and included their
comments where appropriate.


                                            7
Surface Visibility – Transportation                                                   NO-AR-14-004
 Operations – Suncoast District



We assessed the reliability of SV data by comparing observations to electronic data and
by evaluation controls over data sources. We determined the electronic SV data were
not sufficiently reliable. However, based on our observations and analyses, we were
able to overcome this limitation and identify potential transportation savings as reported.

Prior Audit Coverage

                                                               Final
                                                              Report         Monetary Impact
           Report Title                 Report Number           Date
 Surface Visibility –                   NO-AR-13-007         9/25/2013          $891,713
 Transportation Operations –
 Oklahoma District
 Report Results:
 The OIG assessed SV use in transportation operations in the Oklahoma District. Controls
 were not in place to ensure the integrity of the scanning, containers were not always properly
 barcoded, trailers were not always scanning truck arrivals and departures, and employees
 were using workarounds, such as scanning pre-printed barcodes instead of performing actual
 scans. As a result, scan compliance scores may have been artificially inflated, data from the
 system were unreliable and, therefore, the system was not a useful management tool, and
 management was not able to take advantage of system features to optimize the transportation
 network. In addition, the Postal Service missed an opportunity to use accurate data to identify
 and eliminate or modify 38 trips from HCRs with estimated savings of $265,000 annually, and
 could have removed 3,636 unnecessary workhours from PVS schedules, saving an average
 of $184,000 annually. Management agreed with the findings and recommendations.

 Evaluation of Major                       NL-AR-11-008       9/27/2011         $9,323,532
 Transportation Technology
 Initiatives
 Report Results:
 The OIG reviewed four technology initiatives: SV; Transportation Optimization, Planning, and
 Scheduling (TOPS); the Postal Vehicle Service Management System (PVS-MS); and the Yard
 Management System Pilot (YMS Pilot). The Postal Service expensed more than $300 million
 on these initiatives and none achieved all of their intended results. The SV initiative was
 generally capable of functioning as planned but was not fully providing the intended
 transportation visibility, the TOPS initiative was implemented for routing air transportation but
 not for surface transportation (one of its major components) and long-range air route planning
 as originally designed, the PVS-MS initiative was implemented to monitor driver and fleet
 performance but lacked the necessary connectivity to function properly and was discontinued
 in 2008, and the YMS Pilot initiative was implemented at two locations and improved yard
 efficiency through automation, but did not replace all required manual processes.
 Management agreed with most of the findings and all of the recommendations.




                                                 8
Surface Visibility – Transportation                                                              NO-AR-14-004
 Operations – Suncoast District


Appendix B. Assessment of Postal Vehicle Service and Highway Contract Routes
                       Using Surface Visibility Data

SV is used to collect data to help plan, manage, and optimize the transportation
network. It shows the volume of mail moving through the surface transportation network.
By using SV system data, managers can access detailed information to optimize HCR
and PVS operations, manage resources, track volume, and identify network problems at
Postal Service facilities to take corrective action to improve efficiency.

Prior to conducting our observations, we analyzed PVS and HCR schedules servicing
the Tampa and Orlando P&DCs and L&DCs. As part of this analysis, we assessed
trailer volumes reported in TIMES (via SV scans) and identified potential opportunities
to modify and eliminate trips. We found that PVS and HCR trips were not efficient and
that, because of low volumes, management could consolidate or eliminate some trips
without causing additional service delays.

See Tables 2 and 3 for HCR recommended mileage reductions and cost savings and
recommended adjustments, respectively; and Table 4 for PVS hour reduction
recommendations.

                            Table 2. Suncoast District HCR
                      Recommended Mileage Reductions and Savings7


                                                 Total
                                HCR             Number           Annual
                               Contract         of Trips        Mileage              Annual
             Location          Number           Modified        Reduced              Savings

            Tampa                275N2               2               148,965            $201,843

            Tampa                320SE               2               664,499              952,482

            Tampa                33510               2                84,412              121,500

            Tampa                33518               6                11,856               31,288

            Tampa                33534              10                  5,715              12,665

            Tampa                335BA               2                  3,483                8,259

            Tampa                335M5               5                    960                2,720

            Tampa                335M6               2                    508                1,134


7
 We calculated HCR savings using the Postal Service’s Eastern Area savings estimator as of January 1, 2014. The
estimator calculates savings based on input frequency, mileage reductions, and current rates per mile.

                                                         9
Surface Visibility – Transportation                                            NO-AR-14-004
 Operations – Suncoast District



                                               Total
                                   HCR        Number      Annual
                                  Contract    of Trips   Mileage     Annual
               Location           Number      Modified   Reduced     Savings

              Tampa                   338BG      4          40,554       $33,568

              Tampa                   337A1      6          23,807        58,497

              Orlando                 32716      2         123,970       171,497

              Orlando                 32739      4            568          1,198

              Orlando                 328N4      2           3,979         7,150

              Orlando                 328M6      2            152           214

              Orlando                 32757      6          22,603        63,617

              Orlando                 32717      2          18,784        40,837

              Orlando                 327M6     16          17,502        34,551

              Orlando                 328SE     24          24,829       133,047

              Orlando                 32297      2         118,912       188,646

              Orlando                 327B5      2            284         740.20

              Total                             103      1,316,342   $2,065,4538
              Source: OIG analysis.




8
    Undiscounted annual savings

                                                  10
Surface Visibility – Transportation                                                      NO-AR-14-004
 Operations – Suncoast District


                              Table 3. Suncoast District HCRs –
                           Summary of Recommended Adjustments


     HCR
    Contract                        Trip
    Number         Location       Numbers   Origin/Destination         Recommendation
                                            Columbia P&DC to      Combine with Trip 15 and
      275N2          Tampa            13
                                            Tampa P&DC            adjust stops.
                                            Tampa P&DC to         Combine with Trip 16 and
      275N2          Tampa            14
                                            Columbia P&DC         adjust stops.
                                            Orlando L&DC to       Combine with Trip 5 and adjust
      320SE          Tampa            7
                                            New Jersey STC        stops.
                                            New Jersey STC to     Combine with Trip 6 and adjust
      320SE          Tampa            8
                                            Orlando L&DC          stops.
                                            Tampa P&DC to Fort
      33510          Tampa            5                           Combine with Trip 7.
                                            Meyers P&DC
                                            Fort Meyers P&DC to
      33510          Tampa            6                           Combine with Trip 8.
                                            Tampa P&DC
                                            Tampa to Tarpon       Combine with Trip 17. Add
      33518          Tampa            15
                                            Springs               stops and adjust frequency.
                                            Tarpon Springs to     Combine with Trip 18. Add
      33518          Tampa            16
                                            Tampa                 stops and change frequency.
                                            Tampa to Tarpon
      33518          Tampa            13                          Eliminate holiday schedule.
                                            Springs
                                            Tarpon Springs to
      33518          Tampa            14                          Eliminate holiday schedule.
                                            Tampa
                                            Tampa to Tarpon
      33518          Tampa            19                          Eliminate holiday schedule.
                                            Springs
                                            Tarpon Springs to
      33518          Tampa            20                          Eliminate holiday schedule.
                                            Tampa
                                                                  Eliminate Sunday and holiday
      33534          Tampa            7     Tampa to Brandon
                                                                  runs and keep Monday runs.
                                                                  Eliminate Sunday and holiday
      33534          Tampa            8     Brandon to Tampa
                                                                  runs and keep Monday runs.
                                                                  Eliminate Sunday and holiday
      33534          Tampa            11    Tampa to Valrico
                                                                  runs and keep Monday runs.
                                                                  Eliminate Sunday and holiday
      33534          Tampa            12    Valrico to Tampa
                                                                  runs and keep Monday runs.

      33534          Tampa            19    Tampa to Valrico      Eliminate holiday schedule.

      33534          Tampa            20    Valrico to Tampa      Eliminate holiday schedule.

      33534          Tampa            23    Tampa to Brandon      Eliminate holiday schedule.

      33534          Tampa            24    Brandon to Tampa      Eliminate holiday schedule.

      33534          Tampa            27    Tampa to Valrico      Eliminate holiday schedule.


                                                11
Surface Visibility – Transportation                                                      NO-AR-14-004
 Operations – Suncoast District




     HCR
    Contract                        Trip
    Number         Location       Numbers    Origin/Destination          Recommendation
      33534          Tampa            28     Valrico to Tampa       Eliminate holiday schedule.

      335BA          Tampa            17     Tampa to Port Richey   Eliminate trip.

      335BA          Tampa            16     Port Richey to Tampa   Eliminate trip.

                                             Palm Harbor to
      335M5          Tampa            19                            Eliminate holiday schedule.
                                             Tampa

      335M5          Tampa            20     Tampa to Dunedin       Eliminate holiday schedule.

      335M5          Tampa            21     Dunedin to Tampa       Eliminate holiday schedule.

                                             Tampa to Palm
      335M5          Tampa            22                            Eliminate Holiday schedule.
                                             Harbor
                                             Palm Harbor to
      335M5          Tampa            25                            Eliminate Holiday schedule.
                                             Tampa
                                             Tampa to Land
      335M6          Tampa             7                            Eliminate holiday schedule.
                                             O’Lakes Annex
                                             Land O’Lakes Annex
      335M6          Tampa             8                            Eliminate holiday schedule.
                                             to Tampa
                                                                    Duplicate stops. Combine with
      338BG          Tampa             1     Lakeland to Tampa
                                                                    338A3.
                                                                    Duplicate stops. Combine with
      338BG          Tampa             2     Tampa to Lakeland
                                                                    338A3.
                                                                    Duplicate stops. Combine with
      338BG          Tampa             3     Lakeland to Tampa
                                                                    338A3.
                                                                    Duplicate stops. Combine with
      338BG          Tampa             4     Tampa to Lakeland
                                                                    338A3.
                                             Tampa to Sea Shell
      337A1          Tampa            31                            No volume on trip. Eliminate.
                                             Books
                                             Sea Shell Books to
      337A1          Tampa            32                            No volume on trip. Eliminate.
                                             St. Petersburg
                                             St. Petersburg to
      337A1          Tampa            79                            Combine with Trip 81.
                                             Beach Station
                                             Beach Station to St.
      337A1          Tampa            80                            Combine with Trip 82.
                                             Petersburg
                                             St. Petersburg to
      337A1          Tampa            103    Largo Seminole         Combine with Trip 111.
                                             Branch
                                             Largo Seminole
      337A1          Tampa            104    Branch to St.          Combine with Trip 112.
                                             Petersburg
                                             Miami P&DC to
      32716         Orlando           3201                          Combine with Trip 3207.
                                             Orlando STC




                                                  12
Surface Visibility – Transportation                                                        NO-AR-14-004
 Operations – Suncoast District




     HCR
    Contract                        Trip
    Number         Location       Numbers    Origin/Destination           Recommendation
                                             Orlando STC to
      32716         Orlando           3202                           Combine with Trip 3208.
                                             Miami P&DC
                                             Mid-Florida to Winter
      32739         Orlando           21                             Eliminate holiday schedules.
                                             Park - Aloma Branch
                                             Winter Park - Aloma
      32739         Orlando           22                             Eliminate holiday schedules.
                                             Branch to Mid-Florida
                                             Orlando P&DC to
                                                                     Eliminate day after holiday
      32739         Orlando           37     Winter Park - Aloma
                                                                     schedules.
                                             Branch
                                             Winter Park - Aloma
                                                                     Eliminate day after holiday
      32739         Orlando           38     Branch to Orlando
                                                                     schedules.
                                             P&DC
                                             Orlando P&DC to
      328N4         Orlando            7     Clermont Carrier        Eliminate Sunday run.
                                             Annex
                                             Clermont Carrier
      328N4         Orlando            6     Annex to Orlando        Eliminate Sunday run.
                                             P&DC
                                             Orlando P&DC to St.
      328M6         Orlando           13                             Eliminate holiday schedules.
                                             Cloud
                                             St. Cloud to Orlando
      328M6         Orlando           14                             Eliminate holiday schedules.
                                             P&DC
                                             Orlando P&DC to         Combine with trip 23 and
      32757         Orlando           17
                                             Kissimmee               adjust stops.
                                             Kissimmee to            Combine with trip 24 and
      32757         Orlando           18
                                             Orlando P&DC            adjust stops.
                                             Orlando to              Eliminate Sunday and holiday
      32757         Orlando           11
                                             Kissimmee               schedules.
                                             Kissimmee to            Eliminate Sunday and holiday
      32757         Orlando           12
                                             Orlando P&DC            schedules.
                                             Orlando P&DC to
      32757         Orlando           31     Kissimmee Carrier       Trip has no volume. Eliminate.
                                             Annex
                                             Kissimmee Carrier
      32757         Orlando           32     Annex to Orlando        Trip has no volume. Eliminate.
                                             P&DC
                                                                     There are five trips in a 6-hour
                                             Orlando P&DC to
      32717         Orlando            1                             window and only four are
                                             Mid-Florida P&DC
                                                                     needed, based on volume.
                                                                     There are five trips in a 6-hour
                                             Mid-Florida P&DC to
      32717         Orlando            2                             window and only four are
                                             Orlando P&DC
                                                                     needed based on volume.
                                             Orlando P&DC to         Sunday and holiday runs.
      327M6         Orlando            3
                                             Ocoee Annex             Leaves facility at 2:10 a.m.




                                                  13
Surface Visibility – Transportation                                                      NO-AR-14-004
 Operations – Suncoast District




     HCR
    Contract                        Trip
    Number         Location       Numbers    Origin/Destination          Recommendation
                                                                    Eliminate Sunday and holiday
                                             Ocoee Annex to
      327M6         Orlando            4                            runs. No data recorded in SV
                                             Orlando P&DC
                                                                    system.
                                             Orlando to Ocoee       Eliminate Sunday and holiday
      327M6         Orlando            7
                                             Annex                  trips.
                                             Ocoee Annex to         Eliminate Sunday and holiday
      327M6         Orlando            8
                                             Orlando P&DC           trips.

      327M6         Orlando            9     Orlando to Ocoee       Eliminate holiday runs.

                                             Ocoee to Orlando
      327M6         Orlando           10                            Eliminate holiday runs.
                                             P&DC

      327M6         Orlando           311    Orlando to Wildwood    Eliminate holiday runs.

      327M6         Orlando           312    Wildwood to Orlando    Eliminate holiday runs.

      327M6         Orlando           313    Orlando to Leesburg    Eliminate holiday runs.

      327M6         Orlando           314    Leesburg to Orlando    Eliminate holiday runs.

      327M6         Orlando           315    Orlando to Wildwood    Eliminate holiday runs.

      327M6         Orlando           316    Wildwood to Orlando    Eliminate holiday runs.

                                                                    Eliminate Sunday and holiday
      327M6         Orlando           317    Orlando to Leesburg
                                                                    schedule.
                                                                    Eliminate Sunday and holiday
      327M6         Orlando           318    Leesburg to Orlando
                                                                    schedule.

      327M6         Orlando           38     Sebastian to Orlando   Eliminate holiday runs.

                                             Orlando to Merritt     Eliminate Sunday and holiday
      327M6         Orlando           204
                                             Island                 schedule.
                                             Mid-Florida P&DC to
      327B5         Orlando           123                           Eliminate holiday runs.
                                             Maitland
                                             Maitland to
      327B5         Orlando           124                           Eliminate holiday runs.
                                             Mid-Florida P&DC
                                             Orlando STC to
      328SE         Orlando           4039                          Combine with Trip 4041.
                                             Orlando P&DC
                                             Orlando P&DC to
      328SE         Orlando           4040                          Combine with Trip 4042.
                                             Orlando STC
                                             Orlando STC to         Combine with Trip 4049 but
      328SE         Orlando           4047
                                             Orlando P&DC           change frequency to daily.
                                             Orlando P&DC to        Combine with Trip 4050 but
      328SE         Orlando           4048
                                             Orlando STC            change frequency to daily.
                                             Orlando STC to         Combine with Trip 4053 and
      328SE         Orlando           4051
                                             Orlando P&DC           adjust stops as needed.


                                                 14
Surface Visibility – Transportation                                                   NO-AR-14-004
 Operations – Suncoast District




     HCR
    Contract                        Trip
    Number         Location       Numbers    Origin/Destination        Recommendation
                                             Orlando L&DC to      Combine with Trip 4054 and
      328SE         Orlando           4052
                                             Orlando P&DC         adjust stops as needed.
                                             Orlando P&DC to
      328SE         Orlando           4055                        Combine with Trip 4057.
                                             Orlando L&DC
                                             Orlando L&DC to
      328SE         Orlando           4056                        Combine with Trip 4058.
                                             Orlando P&DC
                                             Orlando STC to
      328SE         Orlando           4075                        Combine with Trip 4077.
                                             Orlando P&DC
                                             Orlando P&DC to
      328SE         Orlando           4076                        Combine with Trip 4078.
                                             Orlando STC
                                             Orlando STC to
      328SE         Orlando           4079                        Combine with Trip 4081.
                                             Orlando P&DC
                                             Orlando P&DC to
      328SE         Orlando           4080                        Combine with Trip 4082.
                                             Orlando STC
                                             Orlando STC to
      328SE         Orlando           4083                        Combine with Trip 4085.
                                             Orlando P&DC
                                             Orlando P&DC to
      328SE         Orlando           4084                        Combine with Trip 4086.
                                             Orlando STC
                                             Orlando STC to       Combine with Trip 4015
      328SE         Orlando           4019
                                             Orlando P&DC         change frequency to daily.
                                             Orlando P&DC to      Combine with Trip 4016
      328SE         Orlando           4020
                                             Orlando STC          change frequency to daily.
                                             Orlando STC to
      328SE         Orlando           4021                        Combine with Trip 4023.
                                             Orlando P&DC
                                             Orlando P&DC to
      328SE         Orlando           4022                        Combine with Trip 4024.
                                             Orlando STC
                                             Orlando P&DC to      Eliminate based on discussion
                                             Terminal Handling    with Transportation and
      328SE         Orlando           9029
                                             System (THS)         Network Specialist (TANS)
                                             Surface Hub          manager and email response.
                                                                  Eliminate based on discussion
                                             Orlando THS to
      328SE         Orlando           9030                        with TANS manager and email
                                             Orlando P&DC
                                                                  response.
                                                                  Eliminate based on discussion
                                             Orlando P&DC to
      328SE         Orlando           9031                        with TANS manager and
                                             THS Surface Hub
                                                                  email response.
                                                                  Eliminate based on discussion
                                             Orlando THS to
      328SE         Orlando           9032                        with TANS manager and
                                             Orlando P&DC
                                                                  email response.
                                                                  Eliminate based on discussion
                                             Orlando P&DC to
      328SE         Orlando           9039                        with TANS manager and
                                             THS Surface Hub
                                                                  email response.
                                                                  Eliminate based on discussion
                                             Orlando THS to
      328SE         Orlando           9040                        with TANS manager and
                                             Orlando P&DC
                                                                  email response.


                                                 15
Surface Visibility – Transportation                                                                    NO-AR-14-004
 Operations – Suncoast District




       HCR
      Contract                        Trip
      Number         Location       Numbers         Origin/Destination                Recommendation
                                                    Jacksonville NDC to         Combine with Trip 809. Adjust
        32297         Orlando           805
                                                    Orlando P&DC                stops.
                                                    Orlando P&DC to             Combine with Trip 810. Both
        32297         Orlando           806
                                                    Jacksonville NDC            return trips show no volume.
     Trip Count                         103
    Source: OIG analysis.



               Table 4. Suncoast District PVS Recommended Hour Reductions9


                                                                                  Scheduled          Scheduled
                                                                                   Annual               Hours
    Facility    Schedule                       Frequency                            Miles            Eliminated
                              G - Holidays other than Martin Luther King,
     Tampa        18500       Jr.'s Birthday, Washington's Birthday,                     -                48
                              Columbus Day, and Veterans Day

                              G - Holidays other than Martin Luther King,
     Tampa        18502       Jr.'s Birthday, Washington's Birthday,                     -                48
                              Columbus Day, and Veterans Day

                              G - Holidays other than Martin Luther King,
     Tampa        28503       Jr.'s Birthday, Washington's Birthday,                     -                45
                              Columbus Day, and Veterans Day

                              G - Holidays other than Martin Luther King,
     Tampa        28505       Jr.'s Birthday, Washington's Birthday,                    18                34
                              Columbus Day, and Veterans Day

                              G - Holidays other than Martin Luther King,
     Tampa        28506       Jr.'s Birthday, Washington's Birthday,                    16                48
                              Columbus Day, and Veterans Day

                              G - Holidays other than Martin Luther King,
     Tampa        28507       Jr.'s Birthday, Washington's Birthday,                    42                40
                              Columbus Day, and Veterans Day

                              G - Holidays other than Martin Luther King,
     Tampa        38508       Jr.'s Birthday, Washington's Birthday,                     -                41
                              Columbus Day, and Veterans Day




9
 We calculated PVS savings by eliminating annual hours for specific underutilized trips. Savings resulted from
multiplying the annual frequencies by fully loaded workhour rates for fiscal years (FYs) 2012-2014, published April 8,
2013.

                                                          16
Surface Visibility – Transportation                                                     NO-AR-14-004
 Operations – Suncoast District




                                                                          Scheduled   Scheduled
                                                                           Annual        Hours
  Facility    Schedule                     Frequency                        Miles     Eliminated
                            G - Holidays other than Martin Luther King,
   Tampa        38509       Jr.'s Birthday, Washington's Birthday,            -           48
                            Columbus Day, and Veterans Day

                            G - Holidays other than Martin Luther King,
   Tampa        38510       Jr.'s Birthday, Washington's Birthday,           600          48
                            Columbus Day, and Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        19400       Washington's Birthday, Columbus Day, and          -           32
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        19401       Washington's Birthday, Columbus Day, and         28           32
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        29403       Washington's Birthday, Columbus Day, and          -           30
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        29404       Washington's Birthday, Columbus Day, and         10           32
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        29405       Washington's Birthday, Columbus Day, and         12           32
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        29406       Washington's Birthday, Columbus Day, and         408          37
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        39408       Washington's Birthday, Columbus Day, and          -           32
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        39409       Washington's Birthday, Columbus Day, and          0           32
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        39410       Washington's Birthday, Columbus Day, and        364.8         32
                            Veterans Day

                            CC - Martin Luther King, Jr.'s Birthday,
   Tampa        39411       Washington's Birthday, Columbus Day, and         308          32
                            Veterans Day



                                                    17
Surface Visibility – Transportation                                                   NO-AR-14-004
 Operations – Suncoast District




                                                                        Scheduled   Scheduled
                                                                         Annual        Hours
  Facility    Schedule                     Frequency                      Miles     Eliminated
                            CC - Martin Luther King, Jr.'s Birthday,
  Orlando       29201       Washington's Birthday, Columbus Day, and       279          32
                            Veterans Day

                            CC1 - Mondays, Martin Luther King, Jr.'s
  Orlando       19202       Birthday, Washington's Birthday, Columbus     1,425        417
                            Day, and Veterans Day

                            CC1 - Mondays, Martin Luther King, Jr.'s
  Orlando       19201       Birthday, Washington's Birthday, Columbus     1,816        417
                            Day, and Veterans Day
                            67X - Saturdays and Sundays except
  Orlando       16801                                                       -          825
                            holidays
  Orlando       18106       B – Holidays                                  1,014         80

                            CC - Martin Luther King, Jr.'s Birthday,
  Orlando       19106       Washington's Birthday, Columbus Day, and       358          32
                            Veterans Day

  Orlando       18101       B – Holidays                                   484          80
  Orlando       18102       B – Holidays                                  1,008         80
  Orlando       18103       B – Holidays                                   567          80
  Orlando       18104       B – Holidays                                  1,070         80
  Orlando       18105       B – Holidays                                   454          80

  Total                                                                   10,281      2,928

Source: OIG analysis.




                                                   18
Surface Visibility – Transportation                                                              NO-AR-14-004
 Operations – Suncoast District



                                      Appendix C: Monetary Impact


     Recommendation                         Impact Category                               Amount
           4                             Funds Put to Better Use10                          $4,248,601


                                         Monetary Impact Details

     Estimated
Discounted Savings             FY 2014             FY 2015              FY 2016             2-Year Total
PVS Workhour
Savings                                               $134,557            $132,991                  $267,548

Tort Claims Savings                                         2,020              1,985                     4,005
Total Estimated
PVS Savings                                           $136,577            $134,976                  $271,553

Elimination of 103
HCR Trips                      $516,363             $2,003,350          $1,457,335               $3,977,048
Total Estimated
PVS and HCR
Savings                        $516,363             $2,139,927          $1,592,311               $4,248,601

We concluded the Suncoast District could eliminate or modify 103 trips from HCRs
identified during our audit, for an average savings of $1,988,524 annually, or
$3,977,048 over 2 years.11 We also concluded the Suncoast District could eliminate
2,928 workhours from PVS trip schedules identified during our audit, for an average
savings of $135,777 annually, or about $271,553 over 2 years. These savings estimates
include tort claims cost avoidance.




10
  Funds that could be used more efficiently by implementing recommended actions.
11
  These savings estimates are based on implementation of route changes beginning in July 2014. The two years of
savings are calculated at 3 months in FY 2014, 12 months in FY 2015, and 9 months in FY 2015, with an annual
average of $1,988,524.

                                                       19
Surface Visibility – Transportation                              NO-AR-14-004
 Operations – Suncoast District


                             Appendix D: Management’s Comments




                                            20
Surface Visibility – Transportation        NO-AR-14-004
 Operations – Suncoast District




                                      21
Surface Visibility – Transportation        NO-AR-14-004
 Operations – Suncoast District




                                      22
